21° 46 1

ORIGINAL

3!n®fjE

Supreme Court of tfie ®ntteb States

FILES'
SEP 2 2 2021

CAROL M. RAM, PRO SE,
Petitioner,
v.
JOHN B. PEYTON JR.,
Respondent.

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Fifth Circuit

PETITION FOR WRIT OF CERTIORARI

Carol M. Kam, Pro Se
9039 Santa Clara Dr.
Dallas, Texas 75218
214-801-4901
carolmkam@gmail.com

RECEIVED
SEP 2 7 2021
SUPREME'COUOT-Pi'y

r
1

QUESTION PRESENTED FOR REVIEW
Does the Rooker-Feldman Doctrine apply to two
incomplete, illegal proposed State Court Rulings pro­
duced by a former Associate Judge who failed to obtain
' a sign-off of his rulings from the Judge of Record
within 30 days of their creation, as required by State
Law?
Per four Texas Statutes, written at the level a fifth
grader can comprehend, the Court is required to have
signed off on the Orders. Two of these Statutes require
the sign off within 30 days.
After 7 years of “fumbling”, in 2020 Texas State
Court System finally and formally ruled that the un­
signed proposed Peyton Jr. Orders were never final
state rulings, are not now final State rulings, and con­
firmed that they can never be made final State Orders.
The Rooker Feldman Doctrine is crystal clear that
it can only be applied to FINAL State Orders. In fact
the 7 year burden of illegal incomplete State Orders
placed on me by Peyton Jr. actually represents a viola­
tion of my Civil Rights.
The sole issue for this court to consider.is “Can the
Rooker Feldman Doctrine” be applied to two incom­
plete illegal proposed instruments that are not and
cannot be made into FINAL State Orders.

11

PARTIES TO THE PROCEEDING
All parties to the proceeding are named in the cap­
tion of the case as recited on the cover page. There are
no government corporate parties requiring a disclosure
statement under Supreme Court Rule 29.6.

STATEMENT OF RELATED CASES
1] In the Estate ofRobert S Kam Deceased/Justin
Kam and Carol Kam v David Kam as Trustee for the
Robert S Kam, Trust,/Application to set aside the Order
probating the Will for the Determination of heirship
and the removal of David Kam as Independent Execu­
tor. PR-11-01368-3 Dallas County Probate Court #3.
Judgement for the original July 2013 trial was entered
by the Associate Judge, Peyton Jr.*, August 9, 2013.
Judgement for the October 16,2013 rehearing was
entered by the Associate Judge Peyton Jr.* on October
16, 2013.
Both of these Orders by the Associate Judge Peyton
Jr* remain unsigned by the Court of Record and per
Texas law, the “Effective Date” for these two Orders is
the date they are signed by the Referring Court. Also,
per Texas Law, these Orders, which remain unsigned
for more than 30 days, are now expired. [Texas Govern­
ment Code 54A.214.b, 54A.215, and 54A.217]
As noted below, the Dallas Appeal court, with
three rulings, confirmed that the absence of required
court sign off within 30 days, has confirmed that the

Ill

STATEMENT OF RELATED CASES - Continued
above are only proposed orders which were never legal
instruments, are not legal instruments, and can never
be made Final Orders of the Court.
2] Carol Kam Bill of Review PR-15-02286-3 Dal­
las County Probate Court #3 Judgement entered Nov.
16, 2015. [To date the Findings of Fact requested from
Judge Margaret Jones Johnson** have never been is­
sued by the Court as required by Texas Law. Texas
Rules for Civil Procedure Rules 296 and 297].
3] Carol Kam Bill of Review 05-16-00126-CV.
Court of Appeals Fifth District of Texas at Dallas.
Judgement entered December 29, 2016.
4] Carol Kam Bill of Review 17-0079 Texas Su­
preme Court. Court denied to review the Appellant’s
Petition. March 10, 2017.
5] Carol M Kam v Dallas County/State of Texas
3:18 CV-00378-G-BK U.S. District Court, Northern
District of Texas. Magistrate’s Ruling accepted June
12, 2018.
6] Carol M Kam v John B. Peyton Jr* 3:18 CV01447-D U.S. District Court, Northern District of
Texas. Magistrate’s ruling accepted December 20,
2018.
7] Carol M Kam v Dallas County/State of Texas
18-10735 U.S. Court of Appeals for the 5th District.
Magistrate’s ruling upheld March 8, 2019.

IV

STATEMENT OF RELATED CASES - Continued
8] Carol M Kam v John B. Peyton Jr * 18-11657
U.S. Court of Appeals for the 5th District. Magistrate’s
ruling upheld June 18, 2019.
9] Carol M Kam v Dallas County/State of Texas
19-31 Petition for Writ of Certiorari to the U.S. Federal
Supreme Court denied Oct. 7, 2019, rehearing denied
Nov 25, 2019.
10] Carol M Kam u John B. Peyton Jr* 19-479
Petition for Writ of Certiorari to the U.S. Federal Su­
preme Court denied Nov. 12, 2019, rehearing denied
Jan 13, 2020.
11] Carol M Kam [Appellant] v David J Kam,
Trustee for the Robert S Kam Trust, Appellee 05-1901293-CV Dallas Appellate Court, Judgement filed
April 10,2020 dismissing the Appeal as the Peyton Jr*
proposed Orders, without the Court’s signature, are in­
complete, illegal, and unappealable.
12] Carol M Kam [Appellant] v David J Kam,
Trustee for the Robert S Kam Trust, Appellee 05-1901293-CV Dallas Appellate Court Judgement filed
May 12, 2020 Appellee’s Motion for rehearing denied.
This reaffirmed that the proposed Peyton Jr* Orders
are incomplete, illegal, and unappealable.
13] Carol M Kam [Appellant] v David J Kam,
Trustee for the Robert S Kam Trust, Appellee 05-1901293-CV Dallas Appellate Court Judgement filed
June 9, 2020 dismissing the Appellant’s Motion to

V

STATEMENT OF RELATED CASES - Continued
Rehear the Appeal based on the receipt of a signed or­
der by Judge Margaret Jones Johnson** related to one
[not both] of the Peyton Jr*. Orders from 7 years ear­
lier. This confirms that the Peyton Jr.* Proposed Or­
ders can NEVER BE MADE complete, legal or
appealable.
14] Kam [Appellant] v Kam Appellee 20-0490
Texas Supreme Court denied the Appellee Petition for
Review October 2, 2020.
15] Carol M Kam v Dallas County/State of Texas
3:18 CV-00378-G-BK U.S. District Court, Northern
District of Texas. Rehearing denied Nov 18,2020.
17] Carol M Kam v John B. Peyton Jr* 3:18 CV01447-D U.S. District Court, Northern District of
Texas. Rehearing denied Jan 29, 2021.
16] Carol M Kam u Dallas CountyfState of Texas
- 20-11199 U.S. Court of Appeals for the 5th District.
This case remains active in the Fifth Circuit Court.
The Court has been informed of the misconduct by and
complaint on Texas Supreme Court Chief Justice Na­
than Hecht *** which is related to this Case.
18] Carol MKam v John B. Peyton Jr* 21-10127
U.S. Court of Appeals for the 5th District. Denied June
23, 2021, Rehearing denied July 20, 2021
This is the case now before this court.

VI

STATEMENT OF RELATED CASES - Continued
* John B Peyton Jr. is a former Associate Judge
that has been permanently removed as a Judge by the
Texas State Commission on Judicial Conduct as they
have deemed him to be incompetent to hold this posi­
tion.
**

Margaret Jones Johnson has been under inves­
tigation since Jan 2020 by the Texas State Commission
on Judicial Conduct for misconduct related to this case.
***

Texas Supreme Court Chief Justice Nathan
Hecht has been under investigation since July 2021 for
failure to implement SB 512 passed by the Texas Leg­
islature in May 2015, signed by the Governor in June
2015 and went into effect on Sept 1, 2015. SB 512 re­
quires that the Texas Supreme Court create and post
standard Probate Forms, and Wills in order to create
“standards” for the Texas legal system, allow families
to economically, efficiently, and accurately create wills
and use standard Probate Forms without the involve­
ment of attorneys and to facilitate the efficient and ac­
curate processing of wills thru Texas Courts. This Bill
was prompted by the Dallas Probate Court misconduct
in the case before you, misconduct by Texas Probate
Attorneys and courts in Houston and along the TexasMexico border. Nathan Hecht failed to implement the
law at the request of several Probate Attorneys. He will
be removed.

vn
TABLE OF CONTENTS
Page
QUESTION PRESENTED FOR REVIEW..........
1
PARTIES TO THE PROCEEDING.......................

11

STATEMENT OF RELATED CASES..................

11

TABLE OF CONTENTS........................................ vn
TABLE OF AUTHORITIES................ ..................

X

CITATIONS TO THE OPINIONS AND ORDERS
BELOW.................................................................

1

STATEMENT OF JURISDICTION......................

1

APPLICABLE LAW................................................

1

STATEMENT OF THE CASE AND RELEVANT
FACTS..................................................................

3

ARGUMENT FOR ALLOWING/ACCEPTING
THE PETITION..................................................

4

A. VALIDITY OF THE JUDGEMENT...........
B. STATUTORY LAW REFERENCE............
C. PREGNANCY/VALIDITY...........................

4
8

10
11
12

D. ROOKER-FELDMAN..................................
E. PEYTON JR..................................................
F. DISTRICT COURT AND FIFTH CIRCUIT
ERRED IN BOTH FACT AND LAW.......... 12
G. FITZWATER................................................. 13
CONCLUSION........................................................ 14

Vlll

TABLE OF CONTENTS - Continued
Page
APPENDIX
United States Court of Appeals for the Fifth Cir­
cuit, Opinion, Filed Jun. 24, 2021.................... App. 1
United States Court of Appeals for the Fifth Cir­
cuit, Judgment, Filed Jun. 24, 2021............... App. 3
United States District Court for the Northern
District of Texas, Memorandum Opinion and
Order, Filed Jan. 29, 2021................................ App. 5
Supreme Court of Texas, Minute Order, Filed
Oct. 2,2020........................................................ App. 9
Court of Appeal of Texas, Order, Filed Jun. 9,
2020
App. 10
Court of Appeal of Texas, Order, Filed May 12,
App. 11
2020
Court of Appeal of Texas, Order, Filed May 7,
App. 13
2020
Court of Appeal of Texas, Memorandum Opin­
ion, Filed Apr. 10, 2020
App. 14
Court of Appeal of Texas, Judgment, Filed Apr.
10, 2020
App. 17
Court of Appeal of Texas, Order, Filed Apr. 10,
2020
App. 18
United States Court ofAppeals for the Fifth Cir­
cuit, Opinion, Filed Jul. 18, 2019
App. 19
United States District Court for the Northern
District of Texas, Order, Filed Dec. 20, 2018.... App. 21

IX

TABLE OF CONTENTS - Continued
Page
United States District Court for the Northern
District of Texas, Findings, Conclusions and
Recommendations of the United States Mag­
istrate Judge, Filed Oct. 11, 2018
App. 22
United States Court of Appeals for the Fifth Cir­
cuit, Opinion, Filed Mar. 7, 2019
App. 30
United States District Court for the Northern
District of Texas, Order Accepting Findings,
Conclusions and Recommendations of the
United States Magistrate Judge, Filed Jun.
12, 2018
App. 34
United States District Court for the Northern
District of Texas, Judgment, Filed Jun. 12,
2018
App. 36
United States District Court for the Northern
District of Texas, Findings, Conclusions and
Recommendation of the United States Magis­
trate Judge, Filed May 29, 2018
App. 38
Probate Court No. 3 of Dallas County, Order,
Filed Oct. 16, 2013
App. 49
Probate Court No. 3 of Dallas County, Final
. Judgment, Filed Aug. 9, 2013
App. 51
United States Court ofAppeals for the Fifth Cir­
cuit, Order Denying Petition For Rehearing,
Filed Jul. 20, 2021
......App. 57

X

TABLE OF AUTHORITIES
Page
Cases
Burciaga v. Deutsche Bank National Trust US
Court of Appeals, Fifth Circuit, 16-40826 de­
cided September 18, 2017....................................

11

District of Columbia Court of Appeals u. Feld­
man, 460 U.S. 462 (1983)
passim
Rooker v. Fidelity Trust Co., 263 U.S. 413, 44
S. Ct. 149(1923)
.passim
Statutes
28 U.S.C. § 1254

1

1
CITATIONS TO THE OPINIONS
AND ORDERS BELOW
The decision of the Fifth Circuit Court of Appeals
is unpublished. The Petitioner filed for a rehearing
which was denied.
The decision by the Fifth District Court in North
Texas is published.

STATEMENT OF JURISDICTION
The Fifth Circuit Court of Appeals has denied the
Petitioner’s request in a final ruling dated July 20,
2021 [Denial of Rehearing]. Jurisdiction in this Court
is proper per Title 28 USC, Section 1254 as the Su­
preme Court has the right to review an Appeal Court
Ruling via a Writ of Certiorari

APPLICABLE LAW
The Federal District Court denied the Petitioner’s
request based solely on the Rooker-Feldman Doctrine
which disallows any Federal Court review of a valid
Final State Court Judgement. The District Court erred
in Fact by assuming that the illegal incomplete pro­
posed unsigned Peyton Jr. Orders were Final State
Orders. The District Court erred in Law by invoking
the Rooker-Feldman on a case where there is no Final
State Order and the Plaintiff is not asking the Federal
Court to reconsider or reevaluate a valid Final State

2

Order [as none exist on me] Rooker v. Fidelity Trust
Co., 263 U.S. 413-415, 44 S. Ct. 149 (1923) “finding no
federal jurisdiction to review state court judgments
where the state had subject matter over the underly­
ing case. . . This requires a VALID FINAL State
Court Judgement where the state court had proper ju­
risdiction District of Columbia Court ofAppeals v. Feld­
man, 460 U.S. 462 (1983). This is also based on a
VALID FINAL non-Federal court decision.
The case law which defines the Rooker-Feldmen
Doctrine is based on undisputed FINAL/VALID state
court rulings. The District Court and the Appeal Court
also refer to additional Case Law which are based on
FINAL VALID State Rulings.
As an Associate Judge, Peyton Jr. was also re­
quired to have the Judge of Record sign off on any of
his proposed Rulings within 30 days per State Law.
John Peyton has never had the Judge of Record sign
off on any rulings in my Case and, as of this date, the
proposed Orders are incomplete, illegal and not valid
legal instruments
The importance of this Case is critical to the Law
across this Country.
Without exception, all prior cases related to the
Rooker-Feldman Doctrine rely on a VALID FINAL
State Court Rulings. In this Case we have no Valid FI­
NAL State Court Ruling but essentially only a pro­
posed order by an Associate Judge [who failed to have
Jurisdiction], and who failed to have the sign off by the

3

Judge of Record within 30 days, as required by State
Law.

STATEMENT OF THE CASE
AND RELEVANT FACTS
The Case is based on Judicial Misconduct by a
Peyton Jr. with his effort from July to October, 2013 to
cover for the gross incompetence, unethical behavior,
and ineptitude of a Dallas Probate Attorney, David
Pyke. After my brother passed, in 2011,1 exposed the
misconduct of Pyke and Pyke then instructed the Trust
of my Brother’s Trust not to pay my rightful inher­
itance. This B.S. “Beyond Stupid” action by Pyke
prompted the suit to obtain my inheritance.
Prior to the hearings, Dallas Probate Judge Miller,
Peyton Jr. and Dallas Probate Attorney, James Fisher
cut a deal in an Ex Parte meeting in Miller’s Office on
July 15, 2013 to cover for Pyke as he royally “screwed
up” handling my Brother’s estate. Part of the deal was
for Peyton Jr. to hold the trial and prepare the Orders
but Miller was not to sign them or be part of the mis­
conduct in the event the Courtroom scam was exposed
as Miller was running for re-election in 2014.
Fisher and Peyton Jr. conformed to the agreement
and left Miller’s signature off all the Orders to keep
him from being involved.
It took me 7 years and hundreds of thousands of
dollars in attorney fees and court cost to clean up the

4
mess intentionally created by Fisher, Miller and Pey­
ton Jr. I now have multiple State Appeal Court rulings
confirming that the unsigned, illegal, incomplete, pro­
posed Peyton Jr. orders used to crush me for exposing
the gross misconduct, ineptitude and un professional
conduct of David Pyke are not valid, never were valid,
and can never be made valid.
The Defendant, Peyton Jr. has never provided any
Federal Court at any time any Order against me
signed off by the Probate Court as required by and in
accordance with State Law.

ARGUMENT FOR ALLOWING/
ACCEPTING PETITION
A. VALIDITY OF THE JUDGEMENT
Refer to the prior Fifth Circuit Case 18-10735 and
18- 11657 for Peyton Jr.’s absence of authority and his
removal as a Judge by the State of Texas as they
deemed him to be incompetent.
I will focus this argument on the Absence of a
valid, legal State Order which is the fundamental as­
sumption to apply the Rooker-Feldman Doctrine.
After the Federal Courts incorrectly denied review
of the violations of my Civil Rights, in November 2018
I filed a suit back in a Texas State District Court DC19- 00682 [District Court 116, Judge Tonya Parker] to
have the proposed Peyton Jr. Orders voided as Peyton
Jr. failed to have authorization and that the proposed

5
Peyton Jr. orders, remained unsigned by the Court. For
9 months, this Court held multiple hearings on my
case and this State District Court admitted that there
were serious issues of misconduct and illegality in the
Dallas Probate Court, and the Dallas Appeal Court,
with former Judge Robert Fillmore on the panel. While
acknowledging the misconduct of Peyton Jr. in my case,
Judge Parker did not feel confident to alter any prior
rulings due to jurisdictional issues. In October 2019,
Judge Tonya Parker dismissed the case in her court
but encouraged me to go back to the Dallas Probate
Court and the Dallas Appeal Court for relief.
I followed Judge Tonya Parker’s advice and re­
quested that the Dallas Probate Court for the third
time to sign the proposed Orders to make them valid
per State Law. The Dallas Probate Court again refused
to address my Motion as they had with the original
hearing in 2013 and my Bill of Review effort in 2015
[PR-15-2286-3].
I then formally filed an Appeal on the original
Case with the Dallas Appeal Court in October 2019
[05-19-01293-CV] and then a Writ of Mandamus in No­
vember 2019 [05-19-01462-CV] to have the Appeal
Court force the lower court to sign the proposed Peyton
Jr. Orders to make them Legal. The Dallas Appeal
Court questioned their jurisdiction to address a 6 year
old Order from 2013 and a Case they had previously
reviewed in 2016 via a Bill of Review. I responded that
they “can’t” address an Appeal as the Orders had never
been signed by the Court as required by State Law, so
there is no “Effective Date” per State Law. The prior

6
Dallas Appeal Court review of my original Bill of Re­
view Case in 2016 claimed a Court signature was not
required and completely ignored the four provisions in
State Law written at the level a fifth grader could com­
prehend.
The Appeal Court Panel in 2016 was led by former
Judge Robert Fillmore who had a strong long standing
history and reputation for concealing and covering for
misconduct and illegal behavior within the Dallas Pro­
bate Court system, especially for Peyton Jr.
On April 10, 2020, the Dallas Appeal Court, with­
out Fillmore, addressed their prior error and failure of
the Appeal Court from 2016, reversed course, and con­
firmed, that under State Law, which is written at the
level fifth Grader can comprehend, that the Court sign
off is required to set the Effective Date for a proposed
Order by an Associate Judge in a Dallas Probate Court.
The Court determined that the Peyton Orders were in­
complete, not valid, and were unappealable. They also
ruled to deny my Writ to Mandamus to force the lower
Court to sign the proposed Peyton Orders to make
them valid. [ITEM #4/R.E. 20/ROA. 505-510]
The defense requested a rehearing on the April 10,
2020 Dallas Appeal Court Ruling and between he and
I, we submitted over 500 pages of background data and
the Appeal Court re affirmed the April 10th ruling on
May 12, 2020. [ITEM #5/R.E. 26/ROA. 511-512]
On May 7, 2020 [received May 13, 2020,] the Dal­
las Probate Court finally acknowledged their error and
for some totally unexplainable reason, signed off on

7

one but, not both of the two Peyton Jr. Orders. [ITEM
#6/R.E. 28/ROA. 513-514]
I then submitted this May 7, 2020 Order from the
Dallas Probate Court to the Dallas Appeal Court and
they responded on June 9, 2020 that it was not ade­
quate to open an Appeal. [ITEM #7/R.E. 30/ROA. 515516]
This Ruling and the earlier denial of my Writ
of Mandamus to have the Appeal Court Force the
lower Court to sign the Proposed Orders IS
CRITICAL.
The Dallas Appeal Court not only ruled that
the proposed Peyton Jr. Orders were not and
never were valid but that the Dallas Probate
Court’s effort in May 2020 to make them valid
was futile and that:
The Peyton Jr. Orders can never he made Valid.
The Defense then immediately petitioned to the
Texas Supreme Court and on October 2, 2020, after a
four month review, the Texas Supreme Court recog­
nized that the Dallas Appeal Court got it right this sec­
ond time and refused to accept the petition [ITEM
#8/R.E. 32/ROA. 517-518].
The State law requires that the Court sign off on
a proposed Order by an Associate Judge is written in 4
separate sections in the Texas Government Code. Two
of the provisions require that the order be signed
within 30 days. Given the 7 year gap from July 2013
and October 2013 to May 2020, the Dallas Probate

8

Court effort to validate the scam deemed to be too lit­
tle, too late. The end result of the Three Dallas Appeal
Court Rulings is that the Proposed Peyton Jr. Orders
have never been complete legal instruments and due
to the extreme tardiness from the Dallas Probate court
to respond, the Orders can never be perfected and
made legal. All the prior testimony by Peyton Jr. that
he did not deny me my Civil Right to a fair trial was
and remain “LIES”.
Peyton Jr. has failed to provide this court with any
supportive evidence for his position and failed to show
that any of my supportive documents were incomplete,
inappropriate, not applicable or deficient in any way.
The recent Orders by both the Dallas Appeal
Court and the Dallas Probate Court along with the de­
nial of the petition by the Texas Supreme Court have
now confirmed that my position was always legally
sound and that Peyton Jr/s position was always com­
pletely without merit. Peyton Jr. has been removed as
a Judge by the State of Texas as they deemed him to
be incompetent and Judge Margaret Jones Johnson
who mishandled my Bill of Review is currently under
review to be disciplined and or removed with the mis­
conduct related to this and other cases.
B. STATUTORY LAW REFERENCE
Requirement for the Court to sign the proposed
Order by an Associate Judge in a Dallas Probate Court
is as follows.

9
First is that the Associate Judge must obtain an
Order of Referral from the Judge of Record or the State
Probate Judge prior to the hearing and that the date
of any Order by this associate judge is defined as the
date the Referring Court signs the Order per State
Laws Tex. Gov Code 54.209c, 54A.214[b], 54A.215, and
54A.217.
54A.209[c] states: An order described by Sub­
section [a][16] that is rendered and signed by
an associate judge constitutes an order of the
referring court. The judge of the referring
court shall sign the order not later than
the 30th day after the date the associate
judge signs the order.
00

54A.214[b] Except as provided by Section
54A.209[c], if a request for a de novo hearing
before the referring court is not timely filed or
the right to a de novo hearing before the refer­
ring court is waived, the decisions and recom­
mendations of the associate judge or the
■ proposed order or judgement of the asso­
ciate judge becomes the order or judge­
ment ofthe referring court at the time the
judge of the referring court signs the pro­
posed order orjudgment.
54A.215[b] “The judge of the referring court
shall sign a proposed order or judgement the
court adopts as provided by subsection [a][1]
not later than the 30th day after the date
the associate judge signed the order or
judgements

10
REQUIRED SIGN OFF BY THE
JUDGE OF RECORD FOR AN APPEAL
Without Peyton having the Judge of Record sign
off on his proposed Orders to make an Appealable final
Order, Peyton denied me my civil right to take the Pro­
bate Court Case to a Texas Appeal Court.
A State Appeal court will not accept a proposed
Order as a Final Order.
Refer to Texas Governmenf Code.b^A^lTlb]
“Except as provided by subsection [c], the date
the judge of a referring court signs an order or
judgement is the controlling date for the pur­
poses of appeal to or request for other relief
' from a court ofappeals or a supreme court” [“c”
refers To 54A.209.16 where all parties have
agreed, to the associate judge’s ruling;in writ­
ing, which is certainly not applicable with my
case].
a
HAVING AN ORDER WHICH IS SUITABLE FOR
APPEAL IS THE ULTIMATE DEFINITION OF
A FINAL ORDER BY THE COURT AND THIS
LAW CLEARLY AND UNEQUIVOCALLY SHOWS
PEYTON’S* WORK IS SIMPLY A NOW-EXPIRED
PROPOSED ORDER.
C.' PREGNANCY/VALIDITY
A woman is pregnant or not pregnant at any time.
There is no“in between”; The same concept holds true
in Law. An Order is signed by the. Court or not. The
concept of a Partial Final Order does not exist in Law.

13
incomplete, illegal, and unappealable per State
Law.
3] The Texas Courts have confirmed the
Proposed Peyton Jr. Orders can never be made
complete, legal, or appealable.
4] It is an undisputed fact by both Statu­
tory Law and Case Law that the proposed Pey­
ton Jr. Orders are incomplete, illegal, unsigned
and unappealable cannot' be represented as Fi­
nal State Orders.
5] Any assumption that the unsigned pro­
posed Peyton Jr. orders are final is a gross error
of fact.
6] The Rooker-Feldman Doctrine is only, ap­
plicable to valid Final State orders.
9] To apply the Rooker-Feldman Doctrine
while referencing ap unsigned illegal, incom­
plete proposed Order is a gross error of Law.
G. FITZWATER
t

The District Court Judge in his January 29, 2021
ruling makes a curious statement: “Kam has not met
her^ burden of demonstrating extraordinary circum­
stances exist”. The sole reason that this case is back in
the Federal Court system is because of the complete
prior failure of the Federal District Court" to properly
assess the Facts and properly apply the Law as noted
above. I am confident that the; average citizen would

14
quickly assess that a complete failure within the Fed­
eral District Court does in fact constitute not just an
“extraordinary circumstance” but also a “disturbing
circumstance” that justifies review of this case by this
court.

CONCLUSION
The District Court and the Fifth Circuit made an
unexcusable and completely unsupportable error in
Fact and Law in 2018 and 2019 and continued to make
the same error in 2021.
I made no errors and had no deficiencies in any of
my presentations in 2018,2019 and clearly proved that
there was no Final State Order per Texas Statutes. Af­
ter 7 years the State Court, finally confirmed this, and
I immediately provided in 2020 and 2021 this Case
Law, specific to my Case to the Federal Courts fully
confirming their prior error. All of the mistakes were
made by the District and Circuit Court. I never made
an error and promptly filed all claims once I was able
to after State Court actions.
The District Court and the Fifth Circuit are smart
people. The ERROR IN FACT AND LAW was inten­
tional and an overt attempt to provide a favor to a
fellow Jurist, even though he is an acknowledged dis­
grace on their profession. While noble with intent for
loyalty, cover for misconduct and ineptitude is not their
responsibility.

15
Only the Single Issue of the applicability of the
Rooker-Feldman when there is and never was no Final
State Order is to be determined by this Court. I also
pray that the Supreme Court reverse the District
Court and Circuit Court Rulings and permit me to seek
relief in District Court as originally requested.
Respectfully submitted,
Carol M. Kam, Pro Se
9039 Santa Clara Dr.
Dallas, Texas 75218
214-801-4901
carolmkam@gmail.com

